App. 1
NOT FOR PUBLICATION
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ANNE PRAFADA, individually
on her own behalf and as
Guardians Ad Litem of M;
on behalf of D.M.,
Plaintiff-Appellant,

No. 18-17139
D.C. No.
2:18-cv-00718-DGC
MEMORANDUM*
(Filed Feb. 6, 2020)

v.
MESA UNIFIED SCHOOL
DISTRICT,
Defendant-Appellee,
and
STATE OF ARIZONA,
Defendant.

Appeal from the United States District Court
for the District of Arizona
David G. Campbell, District Judge, Presiding
Submitted February 4, 2020**
Before: FERNANDEZ, SILVERMAN, and
TALLMAN, Circuit Judges.

* This disposition is not appropriate for publication and is
not precedent except as provided by Ninth Circuit Rule 36-3.
** The panel unanimously concludes this case is suitable for
decision without oral argument. See Fed. R. App. P. 34(a)(2).

App. 2
Anne Prafada appeals pro se from the district
court’s judgment dismissing her action alleging federal
and state law claims. We have jurisdiction under 28
U.S.C. § 1291. We review for an abuse of discretion a
dismissal for failure to comply with Federal Rule of
Civil Procedure 8. McHenry v. Renne, 84 F.3d 1172,
1177 (9th Cir. 1996). We affirm.
The district court did not abuse its discretion by
dismissing Prafada’s action because the second
amended complaint failed to comply with Rule 8. See
Fed. R. Civ. P. 8(a); McHenry, 84 F.3d at 1177 (affirming
dismissal of complaint that was “argumentative, pro­
lix, replete with redundancy, and largely irrelevant”);
Nevijel v. North Coast Life Ins. Co., 651 F.2d 671, 674
(9th Cir. 1981) (dismissal under Rule 8 was proper
where the complaint was “verbose, confusing and conclusory”).
The district court did not abuse its discretion in
denying Prafada’s motion for a preliminary injunction
because Prafada did not demonstrate that she was
likely to succeed on the merits of her claims. See Short
v. Brown, 893 F.3d 671, 675-76 (9th Cir. 2018) (stating
standard of review and discussing requirements for
granting a preliminary injunction).
We do not consider matters not specifically and
distinctly raised and argued in the opening brief, or
arguments and allegations raised for the first time on
appeal. See Padgett u. Wright, 587 F.3d 983, 985 n.2
(9th Cir. 2009).

App. 3
Prafada’s motion to resubmit her excerpts of record
(Docket Entry No. 33) is granted. The Court has con­
sidered the excerpts Prafada submitted in conjunction
with that motion. All other pending motions and re­
quests are denied.
AFFIRMED.

App. 4
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
Anne Prafada, individually
on her own behalf and
as Guardian Ad Litem
of M. a minor,
Plaintiff,

No. CV-18-00718-PCT
DGC
ORDER
(Filed Oct. 23, 2018)

v.
Mesa Unified School District,
Defendant.
Defendant Mesa Unified School District1 moves to
dismiss pro se Plaintiff Anne Prafada’s complaint. Doc.
51. The motion is fully briefed, and oral argument will
not aid the Court’s decision. Docs. 57, 61. Defendant
also moves to strike two of Plaintiff’s filings (Docs. 63,
64, 65; Docs. 66, 68), and Plaintiff moves for a prelimi­
nary injunction and three-judge panel (Doc. 58). For
the following reasons, the Court will grant Defendant’s
motion to dismiss and deny all other motions as moot.2
I.

Background.

The Court takes the allegations of Plaintiff’s com­
plaint as true for purposes of a motion to dismiss.
1 Defendant’s official name is Mesa Unified School District
No. 4. Doc. 51 at 1 n.l.
2 Plaintiff’s response repeatedly asserts Defendant’s motion
is untimely. See, e.g., Doc. 57 at 13. It is not.

App. 5
Ashcroft v. Iqbal, 556 U.S. 662, 678 (2009). Plaintiff’s
son, M., is eligible for special education services and
attends or attended one of Defendant’s schools. Doc. 25
at 10-11, 15. M. has been diagnosed with several con­
ditions and manifests various behaviors, including
depression, anxiety, attention deficit hyperactivity dis­
order, poor concentration, outbursts, and a need for
repeated redirection. Id. at 15-16. On March 6, 2018,
Plaintiff sued individually and on behalf of M., alleging
Defendant violated her rights and M.’s right to a free
appropriate public education, discriminated against
M. and Plaintiff, and retaliated against M. and Plain­
tiff with threats of criminal prosecution. Id. at 10, 1617.
II.

Legal Standard.

A successful motion to dismiss under Rule 12(b)(6)
must show either that the complaint lacks a cognizable
legal theory or fails to allege facts sufficient to support
its theory. Balistreri v. Pacifica Police Dep’t, 901 F.2d
696, 699 (9th Cir. 1990). A complaint that sets forth a
cognizable legal theory will survive a motion to dismiss
as long as it contains “sufficient factual matter, ac­
cepted as true, to ‘state a claim to relief that is plausi­
ble on its face.’ ” Iqbal, 5 5 6 U.S. at 67 8 (citing Bell Atl.
Corp. v. Twombly, 550 U.S. 544, 570 (2007)). A claim
has facial plausibility when “the plaintiff pleads fac­
tual content that allows the court to draw the reason­
able inference that the defendant is liable for the
misconduct alleged.” Id., 556 U.S. at 678 (citing
Twombly, 550 U.S. at 556). “The plausibility standard

App. 6
is not akin to a ‘probability requirement,’ but it asks
for more than a sheer possibility that a defendant has
acted unlawfully.”Id. (citing Twombly, 550 U.S. at 556).
III. Defendant’s Motion to Dismiss.
Defendant argues that Plaintiff may not assert
claims on behalf of M. because she is pro se and, as a
non-attorney, she may not represent her son. Doc. 51
■ at 5. Defendant also argues Plaintiff fails to state a
claim for relief. Id. at 1.
A. Plaintiff’s Claims on Behalf of M.
“In all courts of the United States the parties may
plead and conduct their own cases personally or by
counsel as, by the rules of such courts, respectively,
are permitted to manage and conduct causes therein.”
28 U.S.C. § 1654. The website for the U.S. District
Court of Arizona, to which the Court directed Plaintiff,
states the relevant local rule:
The right to appear pro se in a civil case in
federal court is contained in a statute, 28
U.S.C. § 1654. Thus, anyone can appear pro se,
and anyone who appears before the Court
without an attorney is considered pro se.
There are, however, certain limitations to self­
representation, such as: ... A non-attorney
parent may not appear pro se on behalf of a
child, except to appeal the denial of the child’s
social security benefits.

App. 7
Proceeding Without an Attorney, United States Dis­
trict Court, District of Arizona (Oct. 2, 2018),
http://www.azd.uscourts.gov/proceeding-without-attomey.
Under the rules in this district, Plaintiff may not ap­
pear on M.’s behalf because she is not appealing a
denial of social security benefits. See Doc. 25.
During a conference with the parties on May 3,
2018, the Court directed Plaintiff to identify authority
which permits her to represent her son as a pro se liti­
gant.3 Plaintiff’s response to Defendant’s motion does
not address 28 U.S.C. § 1654 or the local rule. See Doc.
57 at 13-17. Rather, Plaintiff cites Federal Rule of Civil
Procedure 17(c) and 42 U.S.C. § 1983. Rule 17(c) lists
which “representatives may sue or defend on behalf of
a minor or an incompetent person.” It does not contra­
dict 28 U.S.C. § 1654 or authorize Plaintiff to sue pro
se on behalf of her son. As the Ninth Circuit has noted,
“a non-attorney parent must be represented by counsel
in bringing an action on behalf of his or her child.”
Johns v. Cty. of San Diego, 114 F.3d 874, 876 (9th Cir.
1997); see also Davis v. Walker, 745 F.3d 1003, 1310
(9th Cir. 2014) (“The purpose of Rule 17(c) is to protect
an incompetent person’s interests in prosecuting or de­
fending a lawsuit.”); cf C.E. Pop Equity Trust v. United
States, 818 F.2d 695, 697-98 (9th Cir. 1987) (“The
Trusts’ reliance on [Rule 17(a)] is also misplaced. Rule
17(a) authorizes a trustee of an express trust to sue on
behalf of the trust, without joining persons Tor whose
3 The Court previously advised Plaintiff of resources availa­
ble to pro se litigants and directed Plaintiff to consult the Federal
and Local Rules of Civil Procedure. Doc. 6.

App. 8
benefit the action is brought;’ the rule does not warrant
the conclusion that a nonlawyer can maintain such a
suit in propria persona”). Plaintiff does not explain
how 42 U.S.C. § 1983 authorizes her pro se representa­
tion of M. (Doc. 57 at 13), and nothing in the statute
addresses pro se representation. See 42 U.S.C. § 1983
Plaintiff’s second amended complaint states she
“brings this case on behalf of her son, M.,” and cites
Winkelman u. Parma City Sch. Dist., 550 U.S. 516
(2007). Doc. 25 at 10 \2. Winkelman held that “[par­
ents enjoy rights under [the Individuals with Disabili­
ties Education Act, 20 U.S.C. § 1400 et seq. (“IDEA”)];
and they are, as a result, entitled to prosecute IDEA
claims on their own behalf.” Winkelman, 550 U.S. at
535. But granting a parent the right to sue on her own
behalf does not authorize her to represent her child in
court. The Supreme Court expressly declined to reach
the question of “whether IDEA entitles parents to liti­
gate their child’s claims pro se.” Id.
Plaintiff is not licensed to practice law. She may
not represent her son in this case. The Court accord­
ingly will dismiss all claims Plaintiff asserts on M.’s
behalf. See Doc. 57.
B. Plaintiff’s Individual Claims.
Plaintiff’s response repeatedly refers to her “sup­
plemental pleading.” See, e.g., Doc. 57 at 5. At the con­
ference on May 3, 2018, the Court told Plaintiff that
she could not amend her complaint again before De­
fendant filed its motion to dismiss her second amended

App. 9
complaint. “In determining the propriety of a Rule
12(b)(6) dismissal, a court may not look beyond the
complaint!.]” Schneider v. Cal. Dep’t of Corn, 151 F.3d
1194,1197 n.l (9th Cir. 1998) (internal citations omit­
ted). Thus, while the Court will apply less stringent
pleading standards to Plaintiff, see Weilburg v.
Shapiro, 488 F.3d 1202,1205 (9th Cir. 2007), the Court
will not consider her allegations in other documents.
Rule 8 requires that a complaint contain a “short
and plain statement of the claim showing that the
pleader is entitled to relief.” Fed. R. Civ. P. 8(a)(1). Rule
8(d)(1) requires pleading averments to be “simple, con­
cise, and direct.” Plaintiff’s sixty-four page complaint
fails to comply with Rule 8. Plaintiff cites dozens of
state and federal statutes and cases with interwoven
factual allegations, making difficult Defendant’s and
the Court’s task of identifying her claims. See Doc. 25.
The Court will discuss the claims Defendant identifies
in its motion and claims Plaintiff identifies in her re­
sponse, but the Court will not write Plaintiff’s com­
plaint for her. Hearns v. San Bernardino Police Dep’t,
530 F.3d 1124, 1131 (9th Cir.2008) (“The court may
dismiss a complaint for failure to satisfy Rule 8 if it is
so confusing that its ‘true substance, if any, is well dis­
guised.’”); see also McHenry v. Renne, 84 F.3d 1172,
1180 (9th Cir. 1996) (“Something labeled a complaint
but written more as a press release, prolix in eviden­
tiary detail, yet without simplicity, conciseness and
clarity as to whom plaintiffs are suing for what wrongs,
fails to perform the essential functions of a com­
plaint.”); Nevijel v. N. Coast Life Ins. Co., 651 F.2d 671,

App. 10
673 (9th Cir.1981) (“A complaint which fails to comply
with rules 8(a) and 8(e) may be dismissed with preju­
dice!.]”).
1. 42 U.S.C. § 1983.
Plaintiff’s complaint refers to 42 U.S.C. § 1983
several times. See, e.g., Doc. 25 at 7, 25. Section 1983
provides:
Every person who, under color of any statute,
ordinance, regulation, custom, or usage, of any
State or Territory or the District of Columbia,
subjects, or causes to be subjected, any citizen
of the United States or other person within
the jurisdiction thereof to the deprivation of
any rights, privileges, or immunities secured
by the Constitution and laws, shall be liable
to the party injured in an action at law, suit in
equity, or other proper proceeding for redress,
except that in any action brought against a ju­
dicial officer for an act or omission taken in
such officer’s judicial capacity, injunctive re­
lief shall not be granted unless a declaratory
decree was violated or declaratory relief was
unavailable.
To state a claim under § 1983, Plaintiff must al­
lege that an individual acting under color of state au­
thority violated her constitutional rights or a federal
law. Additionally, a local governmental entity cannot
be liable under § 1983 on a respondeat superior theory.
Monell v. Dep’t ofSoc. Servs., 436 U.S. 658, 694 (1978).
Plaintiff must show a policy, practice, or custom of

App. 11
Defendant which permitted the alleged constitutional
violation to occur. See Christie v. Iopa, 176 F.3d 1231,
1234-35 (9th Cir. 1999). Alternatively, Plaintiff can
show that the government official: “(1) had final policy­
making authority concerning the action alleged to
have caused the particular constitutional or statutory
violation at issue and (2) was the policymaker for the
local governing body for the purposes of the particular
act.” Cortez v. Cty. of Los Angeles, 294 F.3d 1186, 1189
(9th Cir. 2002) (internal quotations and citation omit­
ted).
Defendant argues that Plaintiff alleges no policy,
custom, or practice of Defendant that violated her con­
stitutional or statutory rights, nor does she allege any
other facts to support a § 1983 claim. Doc. 51 at 3.
Plaintiff does not counter Defendant’s argument, nor
does she point to specific allegations in her complaint
which state a claim for relief under § 1983. Doc. 57 at
7-10. Instead, Plaintiff cites an inapposite book on civil
procedure, makes factual assertions the Court cannot
consider, and refers to the First Amendment. Id. The
Court cannot discern the basis for Plaintiff’s § 1983
claim, and she fails to satisfy the Monell pleading
standard for municipal liability. The Court will dismiss
her § 1983 claims.
2. Family Educational Rights and Pri­
vacy Act.
Plaintiff refers to the Family Educational Rights
and Privacy Act (“FERPA”). Doc. 25 at 25. She states:

App. 12
“The School District [‘s] egregious procedure] of falsi­
fying, misrepresenting information and facts show[s]
deliberate indifference clearly indicating intentional
discrimination.” Id. at 26. But as Defendant notes,
Plaintiff does not clearly allege that Defendant dis­
criminated against her. And in any event, “FERPA’s
nondisclosure provisions fail to confer enforceable
rights.” Gonzaga Univ v. Doe, 536 U.S. 272, 287 (2002).
Plaintiff’s response points to no authority or allega­
tions supporting her FERPA claim. Doc. 57 at 13-14.
The Court will dismiss the claim.
3. Disability Claims.
Plaintiff refers to the Individuals with Disabilities
Education Act, 20 U.S.C. § 1400 et seq. (“IDEA”)
throughout her complaint. See, e.g., Doc. 25 at 15-17,
19, 26. States covered by the IDEA must provide a free
appropriate public education (“FAPE”) to all eligible
students with disabilities, and provide those students
with special education and services according to that
student’s individualized education program. Endrew F.
v. Douglas Cty. Sch. Dist., 137 S. Ct. 988, 993-93
(2017). Before a parent may sue under the IDEA, she
must exhaust the act’s administrative process by en­
gaging in preliminary mediation and a due process
hearing. Id. at 994; 20 U.S.C. §§ 1415(e), (f)(l)(B)(i),
§§ 1415(f)(1)(A), (g), § 1415(i)(2)(A). Plaintiff fails to al­
lege that she exhausted her administrative remedies
before filing this suit. See Doc. 25. The Court will dis­
miss the claim.

App. 13
Plaintiff cites the Rehabilitation Act § 504 and
the Americans with Disabilities Act (“ADA”) through­
out her complaint. But the administrative exhaustion
requirements of § 1415(1) of the IDEA also apply to
claims seeking relief for the denial of a FAPE under
the Rehabilitation Act and the ADA. 20 U.S.C.
§ 1415(1); Fry v. Napoleon Cmty. Sch., 137 S. Ct. 743,
752 (2017). As noted, Plaintiff fails to plead adminis­
trative exhaustion. She also fails to plead any claims
not encompassed within the IDEA. Plaintiff’s response
to Defendant’s motion on this point is difficult to follow.
She cites A.R.S. § 15-802, defines tolling of limitations,
fails to respond to Defendant’s arguments, and identi­
fies no allegations in her complaint which plead ex­
haustion. Doc. 57 at 11-13. The Court will dismiss
these claims.
4. Title IX.
Plaintiff cites, without explanation, Title IX of the
Education Amendments of 1972. Doc. 25 at 46. Title IX
provides that “[n]o person in the United States shall,
on the basis of sex, be excluded from participation in,
be denied the benefits of, or be subjected to discrimina­
tion under any education program or activity receiving
Federal financial assistance.” 20 U.S.C. § 1681(a).
Plaintiff fails to allege Defendant discriminated
against her on the basis of sex within the meaning of
the statute. The Court will dismiss this claim.

App. 14
5. Due Process.
“The Fourteenth Amendment’s Due Process Clause
protects persons against deprivations of life, liberty, or
property; and those who seek to invoke its procedural
protection must establish that one of these interests is
at stake. A liberty interest may arise from the Consti­
tution itself, by reason of guarantees implicit in the
word ‘liberty,’ or it may arise from an expectation or
interest created by state laws or policies.” Wilkinson v.
Austin, 545 U.S. 209, 221 (2005) (citations omitted).
Plaintiff’s reference to the Fourteenth Amendment ap­
pears under a heading asserting that Defendant vio­
lated M.’s rights. Doc. 25 at 46-47. To the extent
Plaintiff intends to assert a due process claim on her
behalf, she fails to plead a violation of a liberty or prop­
erty interest, or any substantive due process right. The
Court will dismiss this claim.
6. Title VI and VII of the Civil Rights
Act.
Plaintiff’s complaint cites Title VII. Doc. 25 at 36.
“Title VII prohibits employment discrimination on ac­
count of race, sex, religion, and national origin.” Gay v.
Waiters’ & Dairy Lunchmen’s Union, Local No. 30, 694
F.2d 531, 536 (9th Cir. 1982) (citing 42 U. S.C. § 2000e2(a)). Title VII provides, in pertinent part, that: “It
shall be an unlawful employment practice for an em­
ployer ... to fail or refuse to hire . .. any individual. . .
because of such individual’s race, color, religion, sex,
or national origin!.]” 42 U.S.C. § 2000e-2(a)(l). To

App. 15
“establish a prima facie case of discrimination [,] . . .
the plaintiff must show that (1) she belongs to a pro­
tected class; (2) she was qualified for the position; (3)
she was subject to an adverse employment action; and
(4) similarly situated individuals outside her protected
class were treated more favorably.” Chuang v. Univ. of
Cal. Davis, 225 F.3d 1115, 1123 (9th Cir. 2000) (citing
McDonnell Douglas Corp. v. Green, 411 U.S. 792
(1973)); see Villiarimo v. Aloha Island Air, Inc., 281 F.3d
1054, 1061 (9th Cir. 2002). Plaintiff fails to allege that
Defendant employed her and discriminated against
her. The Court will dismiss this claim.
Plaintiff’s complaint also refers to Title VI. Doc. 25
at 8, 15, 36-37. The first two references are mere cita­
tions without explanation. The third reference alleges
that on February 2, 2016, M. “complained about being
racially discriminate[d against] ”Id. at 36. Title VI pro­
vides that “[n]o person in the United States shall, on
the ground of race, color, or national origin, be excluded
from participation in, be denied the benefits of, or be
subjected to discrimination under any program or ac­
tivity receiving Federal financial assistance.” 42 U.S.C.
§ 2000d. To plead a cause of action, a plaintiff must al­
lege that the defendant is an entity engaging in racial
discrimination and receives federal funding. Fobbs v.
Holy Cross Health Sys. Corp., 29 F.3d 1439, 1447 (9th
Cir. 1994), overruled in part on other grounds by
Daviton v. Columbia/HCA Healthcare Corp., 241 F.3d
1131 (9th Cir.2001)). Plaintiff fails to allege sufficient
facts to plausibly establish Defendant discriminated
against her within the meaning of Title VI. Iqbal, 556

App. 16
U.S. at 678 (citing Twombly, 550 U.S. at 570). The Court
will dismiss this claim and decline to address Defen­
dant’s statute of limitations argument.
7. 42 U.S.C. § 1985.
Plaintiff asserts “a cause of action under [42
U.S.C.] § 1985 for a conspiracy to deprive her of equal
protection.” Doc. 25 at 62. But “[t]he absence of a viable
section 1983 claim necessarily precludes a section 1985
conspiracy claim predicated on the same allegations.”
Warden v. Coolidge Unified Sch. Dist., No. CIV—07—
2273-PHX-MHB, 2008 WL 5235165, at *5 (D. Ariz.
Dec. 16, 2008) (citing Caldeira v. Cty. Of Kauai, 866
F.2d 1175, 1182 (9th Cir. 1989)). Because Plaintiff has
failed to assert a viable § 1983 claim, she cannot state
a claim under § 1985. The Court will dismiss this
claim.
8. Criminal Statutes and Fraud.
Plaintiff’s response recognizes that her complaint
includes various inapplicable criminal claims. Doc. 57
at 14-15. The complaint refers to or asserts claims
under 18 U.S.C. § 242, 18 U.S.C. § 1519, and the Sixth
Amendment. Doc. 25 at 46. These statutes and the
Sixth Amendment are inapplicable in this civil case.
Finally, Plaintiff’s response makes passing refer­
ence to Rule 9(b) and asserts she has alleged with par­
ticularity the circumstances constituting fraud. The

App. 17
Court cannot discern cognizable allegations of fraud
in Plaintiff’s complaint and will dismiss this claim.
C. Dismissal Without Leave to Amend.
The Court will dismiss Plaintiff’s second amended
complaint without leave to amend. “Leave to amend
need not be given if a complaint, as amended, is subject
to dismissal.” Moore v. Kayport Package Express, Inc.,
885 F.2d 531,538 (9th Cir. 1989). The Court’s discretion
to deny leave to amend is particularly broad where
Plaintiff has previously been permitted to amend her
complaint. Sisseton-Wahpeton Sioux Tribe u. United
States, 90 F.3d 351, 355 (9th Cir. 1996). Failure to cure
deficiencies by previous amendment is one of the fac­
tors to be considered in deciding whether justice re­
quires granting leave to amend. Moore, 885 F.2d at
538.
Plaintiff has made three efforts at crafting a viable
complaint and has failed to do so despite specific in­
struction from the Court. The Court will therefore dis­
miss Plaintiff’s second amended complaint without
leave to amend.
D. Defendant’s Request for Attorneys’ Fees.
Defendant requests attorneys’ fees pursuant to 42
U.S.C. § 1988(b) for its defense of Plaintiff’s “frivolous”
claims. Doc. 51 at 9-10. Section 1988 and 42 U.S.C.
§ 2000e-5(k).2 “give a court the discretion to award at­
torney’s fees to a prevailing defendant in certain civil

App. 18
rights lawsuits if the court finds that the plaintiff’s ac­
tion is ‘frivolous, unreasonable, or without founda­
tion.’” Miller v. Los Angeles Cty. Bd. OfEduc., 827 F.2d
617, 619 (9th Cir. 1987) (citing Christiansburg Gar­
ment Co. v. Equal Employment Opportunity Comm’n,
434 U.S. 412, 421 (1978) (Title VII case)); see also
Hughes v. Rowe, 449 U.S. 5, 14-16 (1980) (per curiam)
(applying Christiansburg to 42 U.S.C. § 1983 case).
“The strict nature of the Christiansburg standard is
premised on the need to avoid undercutting Congress’
policy of promoting vigorous prosecution of civil rights
violations under Title VII and § 1983.” Id. (citing
Hughes, 449 U.S. at 14-15; Christiansburg, 434 U.S. at
422). This is particularly true when the plaintiff is pro
se. Id. at 620. The Court is mindful of Defendant’s costs
in defending against this action. And at the parties’
conference on May 3, 2018, Defendant’s counsel repre­
sented that Plaintiff has filed as least two other law­
suits. Nonetheless, the Ninth Circuit directs the Court
to recognize that pro se plaintiffs “cannot simply be as­
sumed to have the same ability as a plaintiff repre­
sented by counsel to recognize the objective merit” of
their claims. Id. The Court will deny Defendant’s re­
quest for attorneys’ fees.
IT IS ORDERED:
1. Defendant’s motion to dismiss (Doc. 5 1) is
granted. Plaintiff’s complaint is dismissed with prej­
udice.
2.
nied.

Defendant’s request for attorneys’ fees is de­

App. 19
3. Defendant’s motions to strike (Docs. 63, 66)
are denied as moot.
4. Plaintiff’s motion for a preliminary injunction
and three-judge panel (Doc. 58) is denied as moot.
Dated this 22nd day of October, 2018.
/s/ David G. Campbell
David G. Campbell
Senior United States District Judge

App. 20
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT
ANNE PRAFADA, individually
on her own behalf and as
Guardians Ad Litem of M;
on behalf of D.M.,
Plaintiff-Appellant,
v.

No. 18-17139
D.C. No.
2:18-cv-00718-DGC
District of Arizona,
Phoenix
ORDER

MESA UNIFIED SCHOOL
DISTRICT,

(Filed May 11, 2020)

Defendant-Appellee,
and
STATE OF ARIZONA,
Defendant.
Before: FERNANDEZ, SILVERMAN, and TALLMAN,
Circuit Judges.
The panel has voted to deny the petition for panel
rehearing.
The full court has been advised of the petition for
rehearing en banc and no judge has requested a vote
on whether to rehear the matter en banc. See Fed. R.
App. P. 35.

App. 21
Prafada’s petition for panel rehearing and petition
for rehearing en banc (Docket Entry No. 55) are de­
nied.
No further filings will be entertained in this closed
case.

App. 22
UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA

Anne Prafada,

)

) CV I8-00718-PHX-DGC

Plaintiff,

)
)

vs.
Mesa Unified School
District,
Defendant.

Phoenix, Arizona
) May 3, 2018
)
)

BEFORE: THE HONORABLE DAVID G.
CAMPBETX. JUDGE REPORTER’S TRANSCRIPT
OF PROCEEDINGS CONFERENCE
*

*

*

[11] MS. PRAFADA: Can I ask why you re­
manded my case to the state court again?
THE COURT: Yes. The reason I did it is be­
cause the only way that people in a state court case can
take their case out of state court and over to federal
court is if there’s a federal statute that allows them to
do that.
In civil cases, there’s some pretty broad statutes
that allow that to happen on the basis of diversity ju­
risdiction or on the basis of federal question.
Your state case is a criminal case and the federal
statute that allows removal of a state criminal case to

App. 23
federal court is very narrow. There are only some very
narrow circumstances under which that can happen.
In fact, in 15 years as a federal district judge, I have
seen it happen one time. Almost all state criminal
cases cannot be removed to federal court under that
statute. And so in the order that I entered remanding
your criminal case to state court, I went through those
three or so reasons in the statute that people can re­
move a criminal case to federal court and I said your
case didn’t satisfy any one of them, therefore there was
no statutory basis to remove, therefore I remanded it
to state court. And that was explained in the order that
I issued.
MS. PRAFADA: Can Rule 60 - is Rule 60 re­
movable?
THE COURT: Are you talking MS PRAFADA: Code 1443 that provides -

App. 24
IN THE UNITED STATES DISTRICT COURT
FOR THE DISTRICT OF ARIZONA
Anne Prafada,
Defendant,
v.

No. CR-18-00357-PHXDGC
ORDER
(Filed Mar. 23, 2018)

State of Arizona,
Plaintiff.
Anne Prafada has attempted to remove her state
criminal case to this Court. Doc. 1. The Court will re­
mand the case.
Ms. Prafada is charged with the misdemeanor of­
fense of failing to ensure that her child attended school
for the number of days required by A.R.S. 15-802. See
Arizona v. Prafada, JC2016-111542 (Maricopa Cty.
Justice Ct. Mar. 10, 2016). It appears from the justice
court’s docket that Ms. Prafada was found guilty after
trial on July 20, 2017, but no judgment has been en­
tered to date.1
Generally, “a federal court should abstain from in­
terfering with ongoing state criminal proceedings [.]”
Gedo v. Idaho, No. CV 09-00166-E-BLW, 2009 WL
2848850, at *1 (D. Idaho Aug. 28,2009) (citing Younger
v. Harris, 401 U.S. 37, 43-45 (1971)). Pursuant to 28
1 See http://justicecourts.maricopa.gov/FindACase/caseInfo.
asp?caseNumber= JC2016-111542 (last visited Mar. 20, 2018)

App. 25
U.S.C. § 1446, the federal court must examine the de­
fendant’s removal papers “to determine whether re­
moval is appropriate, and the court has the authority
to remand a case, sua sponte, for lack of subject matter
jurisdiction.” Id.
Ms. Prafada cites 28 U.S.C. § 1443 as a statutory
basis for removal. Doc. 1 at 7, 58. A state prosecution
may be removed to federal court under § 1443 only in
narrow circumstances. Section 1443(1) authorizes re­
moval where the criminal defendant “is denied or can­
not enforce in the courts of such State a right under
any law providing for the equal civil rights of citizens
of the United States!.]” 28 U.S.C. § 1443(1). “This gen­
erally requires a state law or constitutional provision
that denies the defendant an opportunity to raise a
federal right.” Hollander u. S.F. Cty. Super. Ct., No. C
09-519 SI (pr), 2009 WL 975428, at *1 (N.D. Cal. Apr. 9,
2009) (citing Johnson v. Mississippi, 421 U.S. 213, 220
(1975)). Section 1443(1) is strictly construed against
removal as “it is considered an encroachment on state
court jurisdiction.” Johnson u. Washington, No. C070696-MJP, 2007 WL 2377141, at *1 (W.D. Wash. Aug.
15, 2007). Ms. Prafada asserts a host of alleged viola­
tions of federal law in her removal papers, but has
identified no state law or constitutional provision that
denies her the opportunity to raise a federal right in
state court, nor has she shown that she will be unable
to enforce a federal right in state court.
Section 1443(2) authorizes removal [f]or any act
under color of authority derived from any law provid­
ing for equal rights, or for refusing to do any act on the

App. 26
ground that it would be inconsistent with such law.” 28
U.S.C. § 1443(2). The Supreme Court has construed
this provision as conferring “‘a privilege of removal
only upon federal officers or agents and those author­
ized to act with or for them in affirmatively executing
duties under any federal law providing for equal civil
rights.’” Gedo, 2009 WL 2848850, at *1 (quoting City of
Greenwood v. Peacock, 384 U.S. 808, 824 (1966)). This
case does not fall within that category.
The other federal statutes cited by Ms. Prafada do
not provide a proper basis for removal jurisdiction. The
Court therefore concludes that Ms. Prafada’s criminal
case must be remanded.2
IT IS ORDERED that all pending motions are
denied and the Clerk shall remand this case to Mari­
copa County Justice Court.
Dated this 22nd day of March, 2018.
/s/

David G. Campbell
David G. Campbell
United States District Judge

2 It is worth noting that Ms. Prafada has filed a civil action
that asserts many of the same alleged federal law violations that
are set forth in her removal papers. See Prafada v. Mesa Unified
Sch. Dist., No. CV-18-0718-PHX-DGC (D. Ariz. Mar. 9, 2018).

